GR-50-98-006
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES'
GRANTS TO THE VILLAGE OF NEW ROME POLICE DEPARTMENT
NEW ROME, OHIO
Award Numbers 95-CF-WX-1025 and 96-CM-WX-0281
Audit Report Number GR-50-98-006
January 15, 1998
 
 AUDIT RESULTS
 
The Office of the Inspector General, Audit Division, has completed an audit of two
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Village of New Rome, Ohio (New Rome) Police Department.
The New Rome Police Department received a grant of $13,866 and supplemental funds of
$13,866 to hire one clerk/dispatcher under the Making Officer Redeployment Effective
(MORE) program, and $44,604 to hire or rehire one officer under the Funding Accelerated
for Smaller Towns (FAST). The purpose of the additional officer and clerk is to enhance
community policing efforts. Generally, the New Rome Police Department properly managed the
COPS grants. We determined that:


- Costs charged to the grants were in accordance with grant requirements, except for
    $1,808 in overtime costs improperly charged to the COPS MORE grant. As of August 31, 1997,
    New Rome had requested reimbursement of $15,725 for the COPS MORE grant, and $28,476 for
    the COPS FAST grant.
- Budgeted funds for police services increased from $229,366 in FY 1994 to $256,500 in
    FY 1997 and the number of officers budgeted remained at the level of FY 1994, the year
    before the first grant. Also, the New Rome Police Department appeared to be making a good
    faith effort to fill officer vacancies timely.
- Funds provided under the grants were used to enhance New Rome Police Department's
    community policing efforts. The number of officers performing community policing
    activities increased by the number of officers funded under the grants. However, we noted
    that New Rome did not provide officers with training in community policing.
- New Rome has identified traffic control as a major duty under both grants. The
    current COPS Officer stated that more than half of his time was spent in traffic control.
    The hiring of a clerk should redeploy officers to perform community related activities;
    however, New Rome was unable to support how redeployment of officers was achieved. As a
    result, we question the entire $15,725 in federal reimbursements under the MORE grant.
#####